No. 19-1100

 

 

IN THE

Supreme Court of the Anited States

LEROY D. CROPPER,

Petitioner,
v.

STATE OF ARIZONA,
Respondent.

On Petition for Writ of Certiorari to the
Superior Court of Arizona,
Maricopa County

BRIEF FOR AMICUS CURIAE ARIZONA
ATTORNEYS FOR CRIMINAL JUSTICE IN
SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,889 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 8, 2020.

 

Wilson-Epes Printing Co., Inc.
